THOMAS J. TRASK, B.C.S.*
JAY DAIGNEAULT, B.C.S.*
ERICA F. AUGELLO, B.C.S.*
RANDY D. MORA, B.C.S.*
ROBERT ESCHENFELDER, B.C.S.*
NANCY S. MEYER
DAVID E. PLATTE
JEREMY SIMON
* Board Certified by the Florida Bar in
City, County and Local Government Law

January 29, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: Huong L. Tran v. City of Holmes Beach et al.
Case No. SC20-881
Eleventh Circuit Court of Appeals Case No. 19-13470
United States District Court Case No. 8:19-cv-534 (M.D. Fla.)
Dear Mr. Harris:
Please note that the undersigned attorney notes his appearance in the aforementioned case as
counsel for Respondent, City of Holmes Beach, Florida.
Pursuant to this Court’s Rule 30.4, Respondent, City of Holmes Beach, Florida, hereby
respectfully requests a thirty (30) day extension of time, up to and including March 5, 2021, to file
its brief in opposition to the Petition for Writ of Certiorari as docketed in this Court on January 4,
2021. As grounds for such extension, Respondent states:
1. Respondent is a Florida municipal corporation engaged with litigation with Petitioner
in several matters presently pending (and another threatened) in the state courts of Florida.
2. In this case, Petitioner seeks review of an order of the United States Court of Appeals
for the Eleventh Circuit affirming the United States District Court for the Middle District of
Florida’s final dismissing with prejudice Petitioner’s Third Amended Complaint.
3. Respondent’s brief in opposition is due for filing in this Court on February 3, 2021.
4. Co-Respondents Florida Department of Environmental Protection and its Department
Officials have moved the Court for and received an extension of time to their responsive brief until
March 5, 2021.
5. Further, undersigned counsel is presently handling a series of complex land use appeals
in Florida’s appellate courts along with other significant litigation, including that brought against
the Respondent by Petitioner here.

1

6. A proper brief in opposition to the instant Petition will require substantial time to
research and draft, and extension would facilitate the filing of such proper brief while balancing
the other demands of the undersigned’s practice. Moreover, such extension would align the filing
dates for the responsive briefs of Respondent City of Holmes Beach and Co-Respondents Florida
Department of Environmental Protection and the Department Officials.
7. Considering the foregoing, good cause exists for a thirty day extension of time.
8. Undersigned counsel has communicated with the pro se Petitioner, Huong L. Tran, who
consents to the requested extension but only the condition that the City abate a code enforcement
fine that is presently accruing on the property underlying this case during the period of the thirty
day extension. Undersigned counsel has informed Petitioner that the fine cannot be
administratively abated while the property remains non-compliant with the City’s Code of
Ordinances. Accordingly, Petitioner opposes the extension requested herein.
For the reasons stated herein, Respondent City of Holmes Beach respectfully requests that
the time to file its Response to the Petition in this case be extended by thirty days, up to and
including March 5, 2021.
Respectfully,
TRASK DAIGNEAULT, LLP.

/s/ Jay Daigneault, Esq.
Jay Daigneault, Esq.
Supreme Court of the United States Bar No. 314012
Florida Bar No. 25859
malsimdaig@gmail.com
1001 S. Fort Harrison Ave., Ste. 201
Clearwater, FL 33756
Phone: (727) 733-0494
Fax: (727) 733-2991
Counsel for Respondent City of Holmes Beach
cc:

Huong L. Tran
103 29th St.
Holmes Beach, FL 34217

2

